Audit Report




OIG-09-022
Management Letter for Fiscal Year 2008 Audit of the
Department of the Treasury Forfeiture Fund’s Financial
Statements


December 22, 2008




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 22, 2008


            MEMORANDUM FOR ERIC HAMPL, DIRECTOR
                           TREASURY FORFEITURE FUND

            FROM:                 Michael Fitzgerald /s/
                                  Director, Financial Audits

            SUBJECT:              Management Letter for Fiscal Year 2008 Audit of the
                                  Department of the Treasury Forfeiture Fund’s Financial
                                  Statements

            I am pleased to transmit the attached management letter in connection with the
            audit of the Department of the Treasury Forfeiture Fund (TFF) Fiscal Year 2008
            financial statements. Under a contract monitored by the Office of Inspector
            General, GKA, P.C. (GKA) , an independent certified public accounting firm,
            performed an audit of the financial statements of TFF as of September 30, 2008
            and for the year then ended. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements; and the GAO/PCIE Financial Audit
            Manual.

            As part of its audit, GKA issued and is responsible for the accompanying
            management letter that discusses a matter involving internal control over financial
            reporting that was identified during the audit, but was not required to be included
            in the audit reports.

            In connection with the contract, we reviewed GKA’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where GKA did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789, or a
            member of your staff may contact Catherine Yi, Manager, Financial Audits at
            (202) 927-5591.

            Attachment
                  gka, P.C.                                      Certified Public Accountants | Management Consultants




                           TREASURY FORFEITURE FUND


                                  MANAGEMENT LETTER
                                    FISCAL YEAR 2008

                                           October 31, 2008




                                                                   Member of the American Institute of Certified Public Accountants


1015 18th Street, NW · Suite 200 · Washington, DC 20036 · Phone: 202-857-1777 · Fax: 202-857-1778 · WWW.gkacpa.com
gka, P.C.                                                           Certified Public Accountants | Management Consultants

                           Inspector General, U.S. Department of the Treasury, and the
1015 18th Street, NW       Director, Treasury Forfeiture Fund
      Suite 200
  Washington, DC           We have audited the Principal Statements (balance sheet and the related statements of
        20036              net cost, changes in net position, and budgetary resources, hereinafter referred to as
                           “financial statements”) of the Department of the Treasury Forfeiture Fund (the Fund)
   Phone: 202-857-1777     as of and for the year ended September 30, 2008, and have issued an unqualified
    Fax: 202-857-1778
 Website: www.gkacpa.com   opinion thereon dated October 31, 2008. In planning and performing our audit of the
                           financial statements of the Fund, we considered its internal control over financial
                           reporting in order to determine our auditing procedures for the purpose of expressing
                           our opinion on the financial statements and not to provide assurance on the internal
                           control. We have not considered the internal control since the date of our report.

                           During our audit, we noted a certain matter involving the internal control over
                           financial reporting that is presented in this letter for your consideration. This issue and
                           recommendations, all of which have been discussed with the appropriate members of
                           Fund Management, are intended to improve the internal control over financial
                           reporting. There were no management letter comments carried over from prior years.

                           Our audit procedures are designed primarily to enable us to form an opinion on the
                           financial statements, and therefore may not bring to light all weaknesses in policies or
                           procedures that may exist. Our aim, however, is to use our knowledge of the Fund
                           gained during our audit to provide comments and suggestions we hope will be useful
                           to you.

                           This letter is intended solely for the information and use of the Management of the
                           Fund, the U.S. Department of the Treasury, OMB, the U.S. Congress, the Department
                           of the Treasury Office of Inspector General and the Government Accountability Office
                           and is not intended to be, and should not be used by anyone other than these specified
                           parties.

                           We appreciate the cooperation and courtesies extended to us. We will be pleased to
                           meet with you or your staff at your convenience to furnish any additional information.




                           October 31, 2008




                                                                       Member of the American Institute of Certified Public Accountants
    MANAGEMENT LETTER
COMMENT AND RECOMMENDATION
 YEAR ENDED SEPTEMBER 30, 2008
                    TREASURY FORFEITURE FUND
          MANAGEMENT LETTER COMMENT AND RECOMMENDATION
                   YEAR ENDED SEPTEMBER 30, 2008


INDIRECT OVERHEAD EXPENSES OF THE NATIONAL SEIZED PROPERTY
CONTRACTORS ARE NOT RECORDED AND ACCOUNTED FOR BY THE FUND TO
THE LINE ITEM LEVEL (PRIOR YEAR SIGNIFICANT DEFICIENCY)

In prior fiscal years, we reported that indirect overhead expenses of the national seized property
contractor were not recorded and accounted for by the Fund to the line item level. The Fund’s
Property Custodians incur costs on behalf of the Fund from the time of seizure until the asset is
ultimately disposed. Only holding costs and direct selling costs related to general property were
captured in the Seized Assets and Case Tracking System (SEACATS) at the line item level, but not
the indirect costs. We reported this weakness to management in our prior year report on internal
control over financial reporting (report).

In FY 2007, the General Property Contract was transferred from EG&G to VSE. The Fund has
made significant progress by devoting the resources necessary for resolving this weakness. VSE is
responsible for ensuring their accounting systems meet all government requirements. The systems
should be able to identify and record all revenue and expenses properly. Management in
conjunction with VSE, developed a cost accounting methodology for identifying indirect costs to
the line item level. VSE is converting detailed billing data from the subcontractors and vendors
into an electronic format. VSE validates all incoming invoices and supporting/backup materials to
verify that all charges are accurate and allowable. All supporting material is put through VSE’s
Line Item Cost Accounting Database. There was a delay in the integration process with SEACATS
due to the volume of transactions to be scripted. Notwithstanding, approximately 60% of indirect
costs have been scripted into SEACATS as at the end of September 2008. The integration process
is expected to be 100% complete by the end of the calendar year. Additionally, SEACATS has
been updated with real property cost information through April 2008.

The Budget and Accounting Procedures Act of 1950, Section 3512, Executive Agency's Accounting
System requires federal agencies to establish an internal control which ensures the safeguarding of
assets and the proper recording of revenues and expenditures. It is further reinforced by the Federal
Manager's Financial Integrity Act of 1982 (FMFIA) which requires that internal accounting and
administrative controls be established to provide reasonable assurances that revenues and
expenditures applicable to agency operations are properly recorded and accounted for to permit the
preparation of accounts and reliable financial and statistical reports and to maintain accountability
over the assets. Additionally, the Joint Financial Management Improvement Program’s
(JFMIP)/Financial Systems Integration Office (FSIO) Seized Property and Forfeited Assets
Systems Requirements require seized property and forfeited assets systems to record costs incurred
while the asset is in custody, and costs incurred in disposition activities.




                                                 2
                    TREASURY FORFEITURE FUND
          MANAGEMENT LETTER COMMENT AND RECOMMENDATION
                   YEAR ENDED SEPTEMBER 30, 2008

RECOMMENDATION

Recognizing the progress made so far in implementing corrective actions, and the Fund’s
expectation of completion of all corrective actions in FY 2009, we make no new recommendations
at this time.

MANAGEMENT RESPONSE

During FY2008, the Contractor made material progress in inputting direct and indirect costs into
their Cost Accounting Database and in uploading that data into SEACATS. At the end of the
calendar year, it is anticipated that the Contractor will have 100% of all costs processed through
the system, scripted and uploaded into SEACATS.

The Fund’s response has not been subjected to the auditing procedures applied in the audit of the
financial statements and, accordingly, we do not express an opinion or provide any form of
assurance on the appropriateness of the response or the effectiveness of any corrective action
described therein.




                                                3
